  SOUTHWEST BORDER

PROSECUTION INITIATIVE

   REIMBURSEMENTS 

      U.S. Department of Justice

    Office of the Inspector General

             Audit Division


         Audit Report 10-20

            March 2010

                     SOUTHWEST BORDER

           PROSECUTION INITIATIVE REIMBURSEMENTS



                             EXECUTIVE SUMMARY


       Many drug and other criminal cases occurring along the Southwest
Border are initiated by federal law enforcement agencies or
multi-jurisdictional federal task forces. In 1994, the U.S. Attorneys’ Offices
began to establish partnerships with state and county prosecutors through
which states and local governments began prosecuting cases along the
Southwest Border that had been federally initiated but declined for
prosecution by U.S. Attorneys’ offices. As the number of federally declined
criminal cases prosecuted by state and local governments began to increase,
the financial and resource burden on the states and localities also increased.

       To address these concerns, Congress provided funding beginning in
Fiscal Year (FY) 2001 to state, county, parish, tribal, and municipal
governments in Southwest Border states to reimburse these entities for
costs associated with the prosecution and pre-trial detention of federally
initiated cases that are declined by the U.S. Attorneys’ offices and referred
to state and local jurisdictions. For FYs 2002 through 2007, OJP provided
reimbursements totaling $188 million to the four Southwest Border states of
Arizona, California, New Mexico, and Texas.

      In this audit, we assessed the results of the external audits of the
Southwest Border Prosecution Initiative (SWBPI) reimbursements received
by nine California counties potentially associated with a contractor that was
submitting ineligible cases for SWBPI reimbursement. 1

SWBPI Guidelines

      Since the inception of SWBPI, the program guidelines have been
revised on several occasions, with the most recent revisions issued in July
2007 and again in February 2009. Because the majority of SWBPI
reimbursements discussed in this audit occurred prior to July 2007, unless
noted otherwise our discussion of SWBPI requirements is based on the


       1
          External audits are audits of Department of Justice (DOJ) funds received by state
and local governments, contractors, and other non-DOJ agencies.
guidelines in place prior to July 2007. However, the basic eligibility
requirements have not changed since the inception of the program.

Case Eligibility

     To be eligible for reimbursement under SWBPI, each case submitted
must meet the following criteria:

   •	 The case must be initiated by a federal law enforcement agency.

   •	 The case must be declined for federal prosecution and referred to the
      local jurisdiction for prosecution.

   •	 The case must be prosecuted by a state or local jurisdiction.

   •	 The case must be disposed of during an eligible reporting period.

Reimbursement Amounts

      During the period included in our review, from FYs 2002 through 2007,
each eligible case could receive the following maximum reimbursement,
based upon length of disposition, availability of funds, and the provision of
both prosecution services and pre-trial detention services, as shown in
Table 1.

                             TABLE 1

                   MAXIMUM SWBPI REIMBURSEMENTS


                                                  MAXIMUM
              LENGTH OF DISPOSITION            REIMBURSEMENT
              1 to 15 Days                           $ 2,500
              16 to 30 Days                             5,000
              31 to 90 Days                             7,500
              Over 90 Days                            10,000
             Source: OJP

      To calculate the reimbursement amount for cases submitted for both
prosecution and pre-trial detention services, the length of the prosecution
took precedence in calculating the case disposition category. For
prosecution only and pre-trial detention only cases, each eligible case could
receive 50 percent of the maximum reimbursement.


                                     - ii ­
Prior Reports

       In March 2008, the Office of the Inspector General (OIG), Audit
Division, issued an audit report on the Southwest Border Prosecution
Initiative Reimbursement Program (Report No. 08-22). In that report, we
found that OJP did not adequately oversee the SWBPI program. Specifically,
we found that:

   •	 OJP did not require applicants to provide documentation supporting
      reimbursement requests.

   •	 OJP did not review the applications for accuracy or monitor recipients
      to determine the eligibility of cases submitted for reimbursement.

   •	 OJP did not link reimbursements to actual costs incurred by the
      jurisdictions to prosecute federally declined-referred criminal cases. 2

   •	 OJP had not taken action to identify potential duplicate funding
      between the SWBPI program and other federally funded prosecution
      and pre-trial detention programs.

      In support of the prior SWBPI audit, we also conducted seven external
audits of SWBPI recipients to determine if SWBPI reimbursements were
allowable, supported, and in accordance with applicable laws, regulations,
guidelines, and terms and conditions of the SWBPI program. 3 The external
audits identified unallowable and unsupported SWBPI reimbursements of
$15.57 million, of which $5.41 million was related to San Francisco County.

      We determined that San Francisco County hired a contractor, Public
Resource Management Group (PRM), to manage its SWBPI reimbursement
requests. In this audit, we determined that as a result of the contractor
providing guidance that was materially inaccurate, San Francisco submitted
and received reimbursement for locally initiated cases that were ineligible

       2
          Declined-referred is a term used in the SWBPI guidelines to refer to a point in time
during a federal investigation when a U.S. Attorney or federal law enforcement official
decides not to pursue federal criminal charges against a defendant (declination) and
requests that a state or local jurisdiction prosecute the defendant for violating state or local
criminal statutes (referral).
       3
         The external SWBPI audits included in our prior review were conducted at the:
(1) New Mexico Department of Public Safety; (2) Yuma County, Arizona; (3) Maricopa
County, Arizona; (4) El Paso County Auditor’s Office, Texas; (5) San Diego District
Attorney’s Office, California; (6) Brooks County, Texas; and (7) City and County of
San Francisco, California.


                                             - iii ­
under SWBPI guidelines. The contractor obtained the contract based on the
contractor’s professed expertise related to SWBPI. However the contractor’s
representative stated to us that he did not have any experience related to
SWBPI and that he mistakenly used the State Criminal Alien Assistance
Program (SCAAP) criteria in preparing the San Francisco County SWBPI
reimbursement requests. 4

       Additionally, in an effort to ensure that SWBPI reimbursements were
maintained at the same level each year, we determined that a San Francisco
County official in conjunction with the contractor, had decided that all locally
initiated drug related cases that were below the U.S. Attorney’s prosecution
thresholds should be included in the SWBPI reimbursement requests, even
though the cases were not federally initiated.

      The results of the OIG’s audit of the SWBPI reimbursements received
by San Francisco County were referred for investigation to the OIG
Investigations Division and the U.S. Attorney’s Office (USAO) for the
Northern District of California. As a part of that investigation, the OIG
determined that in addition to San Francisco County, eight other counties in
California may have used the same contractor or used similar practices as
San Francisco to manage their SWBPI reimbursements.

OIG Audit Approach

      Therefore, at the request of the USAO for the Northern District of
California and the OIG Investigations Division, the OIG Audit Division
conducted external audits of the SWBPI reimbursements received by eight
counties potentially associated with the same contractor that managed San
Francisco’s SWBPI reimbursement requests. We also conducted a follow-up
audit on the SWBPI reimbursements received by San Francisco County to
review additional cases that the County had submitted for reimbursement.
These nine audits of California SWBPI recipients determined if SWBPI
reimbursements were allowable, supported, and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the
SWBPI program.

      This audit report summarizes the results of these nine audits. This
audit report generally covered, but is not limited to, SWBPI reimbursements
awarded from FYs 2002 through 2007.



       4
          SCAAP provides federal payments to states and localities that incur correctional
officer salary costs for incarcerating undocumented criminal aliens.


                                           - iv ­
Results in Brief

      The external audits of the SWBPI reimbursements received by the nine
counties included in this report found that the counties received SWBPI
reimbursements totaling $14.43 million from FYs 2002 through 2007, of
which we determined that $12.23 million (85 percent) was unallowable or
unsupported, as shown in Table 2.

                            TABLE 2

           SWBPI REIMBURSEMENTS AUDITED FYs 2002 - 2007


                                                        TOTAL        PERCENTAGE OF
                                         TOTAL        QUESTIONED    REIMBURSEMENTS
  COUNTIES        REPORT NO.         REIMBURSEMENTS     COSTS         QUESTIONED
                 GR-60-08-001
San Francisco    GR-60-09-003          $ 5,751,149      5,751,149       100%
San Mateo        GR-60-09-003            1,520,999      1,520,999       100%
Humboldt         GR-60-08-011              728,445        555,888        76%
Lake             GR-60-09-001            1,019,095        989,605        97%
San Benito       GR-60-09-002              397,984        397,984       100%
Siskiyou         GR-60-09-005              702,317        702,317       100%
Mendocino        GR-60-09-007            1,910,431      1,910,431       100%
Monterey         GR-60-09-008              192,930         76,804        40%
Santa Clara      GR-60-09-009            2,207,320        323,859        15%
    Totals                            $14,430,670     $12,229,036       85%
Source: Office of Justice Programs

      We found that seven of the nine counties consistently submitted cases
that were not federally initiated, accounting for $11.83 million (97 percent)
of the total questioned costs.

       We also found that six counties relied on the same contractor, PRM, to
identify allowable cases and manage their SWBPI reimbursements:
(1) San Francisco County, (2) San Mateo County, (3) Humboldt County,
(4) Lake County, (5) San Benito County, and (6) Siskiyou County.
Generally, we found that the SWBPI reimbursements submitted for the six
counties that used the contractor were not allowable because the cases were
not federally initiated, that is, a federal law enforcement agency was not
involved in the investigation or arrest. The contractor incorrectly advised
these counties to submit locally initiated cases related to undocumented



                                           -v­
aliens and locally initiated drug cases that fell below USAO prosecution
thresholds.

       In addition, we found that Mendocino County, although not associated
with the contractor, also incorrectly submitted for SWBPI reimbursement
locally initiated cases involving undocumented criminal aliens.

      Although Monterey and Santa Clara Counties submitted some
unallowable cases for SWBPI reimbursement, these two counties did not use
the contractor and the majority of the cases submitted were allowable.

      The results of our SWBPI audits were provided to OIG Investigations
Division and to the USAOs for the Northern and Eastern Districts of
California. The USAO for the Northern District of California determined that
because PRM, the contractor, had dissolved and SWBPI funds were received
by the counties rather than PRM, it would not seek charges or a civil
recovery against the contractor or its employees. The USAOs decided to
pursue civil recoveries on behalf of the United States for the unallowable
SWBPI reimbursements received by seven counties: the six counties that
used the contractor and Mendocino County.

       As of February 2010, the USAOs had reached settlement agreements
totaling $11.03 million with the seven counties and those counties had
remitted $9.17 million in unallowable SWBPI reimbursements back to the
United States, as shown in Table 3.

                         TABLE 3

    SWBPI REIMBURSEMENTS RECOVERED AS OF FEBRUARY 2010


                                                                       AMOUNT RECOVERED
        CALIFORNIA          TOTAL OIG                                   AS OF FEBRUARY
         COUNTIES        QUESTIONED COSTS      SETTLEMENT AMOUNT            2010
 San Francisco              $ 5,751,149             $ 5,228,192           $ 5,228,192
 San Mateo                    1,520,999               1,513,921              1,513,921
 Humboldt                       555,888                 416,986                416,986
 Lake                           989,605                 989,605                989,605
 San Benito                     397,984                 397,984                397,984
 Siskiyou                       702,317                 695,080                200,000
 Mendocino                    1,910,431               1,793,045                425,360
          Totals           $11,828,373              $11,034,813           $9,172,048
Source:	 The OIG Audit Division, USAOs for the Northern and Eastern Districts of California,
         and OJP.


                                           - vi ­
      As noted previously, a prior OIG report found that OJP did not
adequately oversee the SWBPI program. In our judgment, the unallowable
reimbursements totaling $11.83 million related to the seven California
counties included in this audit may have been avoided if, at the time the
reimbursement applications were submitted, OJP required applicants to
submit supporting documents. Additionally, at the time the reimbursement
applications were submitted, OJP did not review SWBPI reimbursement
applications for accuracy or conduct any monitoring activities of recipients to
determine the eligibility of cases submitted for reimbursement.

       Since our prior audit was issued in March 2008, OJP has implemented
corrective actions for all 13 of our prior recommendations. Although OJP has
made significant improvements related to its management and
administration of SWBPI, in this audit we identified additional weaknesses in
the SWBPI program. In our judgment, OJP should implement additional
procedures to analyze SWBPI reimbursements to timely identify and follow
up on anomalies that may indicate errors related to reimbursement requests
for specific jurisdictions. For example, we noted that in the last quarter of
FY 2006, San Francisco County, despite being located about 500 miles north
of the Southwest Border, received the highest reimbursement of any SWBPI
participant. This should have been a “red flag” issue that OJP identified and
followed up on much earlier in the process to make sure that the
reimbursements requested by and paid to San Francisco County were
compliant with SWBPI guidelines.

Recommendation

     As a result of this review, we recommend that OJP: implement
procedures to analyze SWBPI reimbursements to identify anomalies that
may indicate unallowable or unsupported payments to specific jurisdictions.




                                    - vii ­
                    SOUTHWEST BORDER

          PROSECUTION INITIATIVE REIMBURSEMENTS


                                TABLE OF CONTENTS

INTRODUCTION ................................................................................ 1


       SWBPI Guidelines .....................................................................2


       Case Eligibility .............................................................................3

       Reimbursement Amounts ............................................................. 4


       Prior OIG Reports......................................................................6


       Audit Approach .........................................................................8


FINDING AND RECOMMENDATION ................................................... 9


       ALLOWABILITY OF SWBPI REIMBURSEMENTS ......................... 9


       San Francisco ......................................................................... 12

       November 2007 Audit ................................................................ 13

       October 2008 Audit ................................................................... 15

       Repayment .............................................................................. 16

       San Mateo County .................................................................. 17

       Humboldt County ................................................................... 19

       Lake County ........................................................................... 21

       San Benito County.................................................................. 22

       Siskiyou County...................................................................... 24

       Mendocino County .................................................................. 25

       Conclusion.............................................................................. 27

       Recommendation ................................................................... 28


STATEMENT ON INTERNAL CONTROLS............................................ 29


STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS...... 30


APPENDIX I – OBJECTIVE, SCOPE, AND METHODOLOGY................. 31

APPENDIX II – OFFICE OF JUSTICE PROGRAM'S RESPONSE TO 

    THE DRAFT REPORT................................................................ 33


APPENDIX III – OFFICE OF THE INSPECTOR GENERAL

    ANALYSIS AND SUMMARY OF ACTIONS TO CLOSE REPORT .... 35

                                   INTRODUCTION

      The Southwest Border Prosecution Initiative (SWBPI) provides funding
to state, county, parish, tribal, and municipal governments in four Southwest
Border states for costs associated with the prosecution and pre-trial
detention of federally initiated criminal cases that are declined by the U.S.
Attorneys offices and referred to state and local jurisdictions for prosecution.

       The United States’ border with Mexico extends nearly 2,000 miles
along the southern borders of California, Arizona, New Mexico, and Texas.
In late 1994, the U.S. Attorneys and state and local prosecutors began
establishing partnerships through which the federal government referred
criminal drug cases involving the illegal importation of controlled substances
at the Southwest Border to state and local governments. These cases are
known as federally declined-referred criminal cases. 5

       Many U.S. Attorneys have developed prosecution guidelines which
govern the most common violations of federal law. These prosecution
guidelines are used by law enforcement agencies to determine whether to
file a case in federal, state, or county court. As a result, many federally
initiated cases occurring near the Southwest Border are subsequently
referred to the state or county for prosecution.

      As state and local governments began to prosecute a growing number
of federally declined-referred criminal cases, they experienced an increased
burden on their financial and personnel resources. As a result, in Fiscal Year
(FY) 2001 Congress appropriated $24 million “. . . to reimburse county and
municipal governments [in the four Southwest Border states] only for
Federal costs associated with the handling and processing of illegal
immigration and drug and alien smuggling cases.” 6 The reimbursement
program was initially administered by the Executive Office for United States
Attorneys (EOUSA).

      In FY 2002, management of the SWBPI program was transferred to
the Department of Justice (DOJ) Office of Justice Programs (OJP).
Specifically, the 2002 Departments of Commerce, Justice, State, the
Judiciary, and Related Agencies Appropriations Act (FY 2002 Appropriations

       5
          Declined-referred is a term used in the SWBPI guidelines to refer to a point in time
during a federal investigation when a U.S. Attorney or federal law enforcement official
decides not to pursue federal criminal charges against a defendant (declination) and
requests that a state or local jurisdiction prosecute the defendant for violating state or local
criminal statutes (referral).
       6
           Pub. L. No. 106-246 (2000).



                                             -1­
Act) authorized OJP to oversee the distribution of “$50,000,000 for the
Southwest Border Prosecutor Initiative . . . to reimburse state, county,
parish, tribal, or municipal governments only for federal costs associated
with the prosecution of criminal cases declined by local U.S. Attorneys
Offices.” 7

     For FYs 2002 through 2007, OJP provided reimbursements totaling
$188 million to the four Southwest Border states, as shown in Table 1.

                                 TABLE 1
                 SWBPI REIMBURSEMENTS (DOLLARS IN MILLIONS) 8

                     FY         FY         FY         FY         FY         FY
   STATES           2002       2003       2004       2005       2006       2007       TOTALS
 Arizona           $ 3.0      $ 3.4       $ 2.1      $ 1.7     $ 2.7      $ 2.4      $ 15.3
 California          18.5       15.6       12.8       13.0       16.3       16.7       92.9
 New Mexico           5.8        8.5        6.5        6.3        3.6        3.7       34.4
 Texas               11.8       11.1        6.8        7.0        4.7        4.1       45.5
     SWBPI
                   $39.1      $38.6       $28.2     $28.0      $27.3      $26.9      $188.1
      Totals
Source: Office of Justice Programs

SWBPI Guidelines

      Since the inception of SWBPI, the program guidelines have been
revised on several occasions. Most recently, new guidelines were issued in
July 2007 and again in February 2009. The majority of SWBPI
reimbursements included in our audit reports occurred prior to July 2007.
As a result, unless noted otherwise, our discussion of SWBPI requirements is
based on the guidelines in place prior to July 2007. However, the core
requirements for SWBPI reimbursement, such as case eligibility, have
remained the same throughout the life of the program.

      Eligible SWBPI participants submit quarterly electronic applications for
reimbursement through BJA’s SWBPI website. For FYs 2002 through 2007,
SWBPI applicants were only required to list the total number of cases in each
of three major categories based on the types of services provided:
(1) prosecution only, (2) pre-trial detention only, and (3) both prosecution
and pre-trial detention. The three major service categories were further

         7
             Pub. L. No. 107-77 (2001).
         8
             Throughout this report, differences in the total amounts are due to rounding.



                                               -2­
broken down into four reimbursement categories based on the length of
disposition: (1) 1 to 15 days, (2) 16 to 30 days, (3) 31 to 90 days, and
(4) over 90 days. 9

      During FYs 2002 through 2007, BJA did not require SWBPI applicants
to submit documentation supporting the number of cases claimed for
reimbursement through the electronic application. However, jurisdictions
that receive SWBPI funds were required during this time period to retain
documentation supporting the reimbursement requests for 3 years from the
date the application was approved.

Case Eligibility

     To be eligible for reimbursement under the SWBPI program, each case
submitted must meet the following criteria.

   •	 The case must be federally initiated. A federally initiated case
      results from a criminal investigation or an arrest involving federal law
      enforcement authorities for a violation of federal criminal law. This
      may include investigations resulting from multi-jurisdictional task
      forces.

   •	 The case must be federally declined and referred. This occurs
      when a U.S. Attorney or federal law enforcement official decides not to
      pursue federal criminal charges against a defendant (declination) and
      requests that a state or local jurisdiction prosecute the defendant for
      violating state or local criminal statutes (referral). Referred cases are
      eligible for SWBPI reimbursement regardless of whether the case was
      formally declined and referred by a U.S. Attorney, through a blanket
      declination-referral policy, through an “accepted federal law
      enforcement practice,” or by federal prosecutorial discretion. 10




       9
          Case disposition is the length of time between a suspect’s arrest and the resolution
(e.g., dismissal, plea, conviction) of the criminal charges through a county or state judicial
process.
       10
            An accepted federal law enforcement practice is an understanding between the
federal law enforcement agencies and the USAO. Declination-referrals through an accepted
federal law enforcement practice result from the fact that, through communication with the
USAO, federal law enforcement agencies obtain an understanding of which cases the USAO
will or will not prosecute. Through this understanding, those cases that federal law
enforcement agencies know the USAO will not prosecute are referred directly to the state or
local jurisdiction without obtaining a declination from the USAO.



                                            -3­
   •	 The case must be prosecuted by a state or local jurisdiction. If
      the state or local jurisdiction reviews the case but decides not to
      prosecute, then the case is not eligible for reimbursement.

   •	 The case must be disposed of during an eligible reporting
      period. The eligible reporting period is the quarter in which the case
      was disposed and case disposition refers to the time between a
      suspect’s arrest and the resolution of the criminal charges by a
      dismissal, plea or conviction, through a county or state judicial or
      prosecutorial process. Disposition does not include incarceration time
      for sentenced offenders or time spent by prosecutors on judicial
      appeals.

      For cases with multiple defendants, each defendant should be claimed
as a separate case. However, one defendant charged in multiple cases
should be claimed as only one case to the extent that the defendant’s cases
are being investigated or prosecuted during concurrent periods of time.

       The following cases are ineligible for SWBPI reimbursements:

   •	 federally referred cases declined and not prosecuted by state or county
      prosecutors,

   •	 probation or parole violation or revocation hearings, 11

   •	 extradition cases, and

   •	 cases not accepted by state or county prosecutors.

Reimbursement Amounts

      During the period included in our audit, each eligible case could
receive the following maximum reimbursement, based upon length of
disposition, availability of funds, and the provision of both prosecution
services and pre-trial detention services.




       11
           A new charge not independently prosecuted, but used as a basis for a probation
or parole revocation hearing, is ineligible for reimbursement.



                                           -4­
                               TABLE 2

                     MAXIMUM SWBPI REIMBURSEMENTS


                                                           MAXIMUM
                LENGTH OF DISPOSITION                  REIMBURSEMENT
                1 to 15 Days                                  $ 2,500
                16 to 30 Days                                    5,000
                31 to 90 Days                                    7,500
                Over 90 Days                                   10,000
              Source: OJP

      In calculating the reimbursement amount for cases submitted for both
prosecution and pre-trial detention services, the length of the prosecution
took precedence in determining a case’s disposition category.

       For prosecution only cases, each eligible case received up to
50 percent of the maximum reimbursement. To be eligible for 50 percent of
the maximum per case reimbursement for prosecution only, an eligible
jurisdiction was required to provide one or more of the following for each
case: (1) judicial services, (2) prosecution services, or (3) defense services.

      For pre-trial detention only cases, each eligible case received up to
50 percent of the maximum reimbursement. To be eligible for pre-trial
detention reimbursement, prior to July 2007, the SWBPI guidelines required
that “an eligible jurisdiction must have held the case defendant overnight for
1 or more days in a secure facility.” In other words, the defendant must be
detained from one calendar day to the next to be eligible for the pre-trial
detention reimbursement prior to July 2007.12

       The first five SWBPI application periods (from October 1, 2001, to
March 31, 2004) were reimbursed at 100 percent of the maximum amount
requested. However, OJP did not make any reimbursements for the 4th
quarter of FY 2004 because all of the SWBPI funds appropriated for the fiscal
year had already been disbursed. As a result, beginning in FY 2005 OJP
officials divided the funds across each quarter with each jurisdiction
receiving an equal percentage of the amount determined available for each


       12
            The July 2007 and subsequent revisions to the SWBPI guidelines require that “an
eligible jurisdiction must have held the case defendant in a secure facility for 24 hours or
more” to be eligible for the pre-trial detention reimbursement. Pre-trial detention services
do not include incarceration time for sentenced offenders.



                                            -5­
quarter. The percentage reimbursements for each quarter during FYs 2002
through 2007 are shown in Table 3.

                          TABLE 3

       PRO-RATA REIMBURSEMENT BASIS FOR FYS 2002 - 2007


                                        START                PERCENTAGE
        REPORTING PERIOD                          END DATE
                                        DATE                 REIMBURSED
   FY02   All Quarters through
                                       10/01/01   09/30/02     100.00%
   FY03   1st and 2nd Quarters
   FY03   3rd Quarter                  04/01/03   06/30/03     100.00%
   FY03   4th Quarter                  07/01/03   09/30/03     100.00%
   FY04   1st Quarter                  10/01/03   12/31/03     100.00%
   FY04   2nd Quarter                  01/01/04   03/31/04     100.00%
   FY04   3rd Quarter                  04/01/04   06/30/04      81.00%
   FY04   4th Quarter                    N/A        N/A         N/A
   FY05   1st Quarter                  10/01/04   12/31/04      49.29%
   FY05   2nd Quarter                  01/01/05   03/31/05      44.08%
   FY05   3rd Quarter                  04/01/05   06/30/05      47.40%
   FY05   4th Quarter                  07/01/05   09/30/05      50.16%
   FY06   1st Quarter                  10/01/05   12/31/05      53.18%
   FY06   2nd Quarter                  01/01/06   03/31/06      47.61%
   FY06   3rd Quarter                  04/01/06   06/30/06      43.09%
   FY06   4th Quarter                  07/01/06   09/30/06      44.05%
   FY07   1st Quarter                  10/01/06   12/31/06      52.34%
   FY07   2nd Quarter                  01/01/07   03/31/07      52.45%
   FY07   3rd Quarter                  04/01/07   06/30/07      49.03%
   FY07   4th Quarter                  07/01/07   09/30/07      57.26%
  Source: Office of Justice Programs

Prior OIG Reports

       In March 2008, the Office of the Inspector General (OIG), Audit
Division, issued an audit report on the Southwest Border Prosecution
Initiative Reimbursement Program (Report No. 08-22), to:

  •	 evaluate OJP’s administration and management of SWBPI

     reimbursements;


  •	 identify additional federal programs with overlapping objectives; and

  •	 determine if SWBPI reimbursement requests submitted by eligible
     jurisdictions are allowable, supported, and in accordance with
     applicable laws, regulations, guidelines, and terms and conditions of
     the SWBPI program.


                                          -6­
      We found that OJP did not adequately oversee the SWBPI program.
Specifically, we found that:

  •	 OJP did not require applicants to provide documentation supporting
     reimbursement requests.

  •	 OJP did not review the applications for accuracy or monitor recipients
     to determine the eligibility of cases submitted for reimbursement.

  •	 OJP did not link reimbursements to actual costs incurred by the
     jurisdictions to prosecute federally declined-referred criminal cases.

  •	 OJP had not taken action to identify potential duplicate funding
     between the SWBPI program and other federally funded prosecution
     and pre-trial detention programs.

       The findings identified above have since been remedied by OJP and the
prior report was closed in March 2009.

      In support of the prior SWBPI audit, we also conducted seven external
audits of SWBPI recipients to determine if SWBPI reimbursements were
allowable, supported, and in accordance with applicable laws, regulations,
guidelines, and terms and conditions of the SWBPI program. The external
audits were conducted at the following selected SWBPI recipients:
(1) New Mexico Department of Public Safety; (2) Yuma County; (3) Maricopa
County; (4) El Paso County Auditor’s Office, Texas; (5) San Diego District
Attorney’s Office, California; (6) Brooks County, Texas; and (7) City and
County of San Francisco, California (San Francisco County).

       Our audits covered SWBPI reimbursements totaling $55.11 million and
identified unallowable and unsupported SWBPI reimbursements of
$15.57 million. Of the $15.57 million unallowable and unsupported SWBPI
reimbursements, $5.41 million was related to San Francisco County.
Specifically, we found that San Francisco County received unallowable
reimbursements for 2,241 cases that were not federally initiated.

      We found that San Francisco County hired a contractor, Public
Resource Management Group (PRM), to manage its SWBPI reimbursement
requests. Our audit found that San Francisco County, due to the inaccurate
guidance it received from the contractor and due to errors by its own
employees, incorrectly submitted locally initiated cases for reimbursement
under SWBPI. We found that all of the cases for which San Francisco had
received SWBPI funds were ineligible for reimbursement. When we
questioned the contractor’s representative as to why cases that did not meet


                                    -7­
SWBPI criteria for reimbursement were submitted, the contractor’s
representative stated that he may have been confused about the difference
between the criteria for reimbursement under SWBPI and the criteria for
reimbursement under another federal reimbursement program he
administered for San Francisco called SCAAP.

      We referred the results of our audit of the SWBPI reimbursements
received by San Francisco County to the OIG Investigations Division and the
U.S. Attorney’s Office (USAO) for the Northern District of California.

Audit Approach

      At the request of the USAO for the Northern District of California and
the OIG Investigations Division, we conducted external audits of the SWBPI
reimbursements received by the eight counties potentially associated with
the contractor. Additionally, we conducted a follow-up audit on the SWBPI
reimbursements received by San Francisco County.

      Our audits generally covered, but were not limited to, SWBPI
reimbursements awarded from FYs 2002 through 2007. Our audits of the
selected nine California SWBPI recipients assessed whether their SWBPI
reimbursements were allowable, supported, and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the
SWBPI program.

     Additional information related to the audit objective, scope, and
methodology is contained in Appendix I.




                                    -8­
                 FINDING AND RECOMMENDATION

      ALLOWABILITY OF SWBPI REIMBURSEMENTS

      Our audits of nine SWBPI recipients determined that
      $12.23 million (85 percent) of the $14.43 million in SWBPI
      reimbursements received by the nine counties during FYs 2002
      through 2007 was unallowable or unsupported. Seven of the
      nine counties consistently submitted cases that were not
      federally initiated, accounting for $11.83 million (97 percent) of
      the total questioned costs. We found that six of these seven
      counties relied on the same contractor, PRM, to identify SWBPI
      cases and manage their SWBPI reimbursements. The contractor
      provided inaccurate guidance to these six counties, and one
      other county followed the same inaccurate guidance. Based on
      our audit work, the USAOs for the Northern and Eastern Districts
      of California, with the assistance of the OIG Investigations
      Division, sought reimbursement from the seven counties to
      remedy the questioned costs associated with cases that were not
      eligible for SWBPI reimbursement. As of December 2009, the
      USAOs had reached settlement agreements totaling
      $11.03 million with all seven counties.

      Pursuant to the SWBPI guidelines, an eligible case is any criminal case
that: (1) was initiated by a federal law enforcement agency or federal
multi-jurisdictional task force, (2) was declined by the U.S. Attorney and
referred to the state or local government for prosecution, (3) was
prosecuted by the state or local government, and (4) was disposed of during
an eligible reporting period. To be eligible for reimbursement, all four
elements of the SWBPI criteria must be met.

       The SWBPI guidelines define “federally initiated” as a case resulting
from a criminal investigation or an arrest involving federal law enforcement
authorities for a potential violation of federal criminal law. This may include
investigations resulting from multi-jurisdictional task forces such as HIDTA
and OCDETF. The SWBPI guidelines further state that “referred cases are
eligible regardless of whether the case was formally declined and referred by
a U.S. Attorney, or through a blanket federal declination-referral policy, an
accepted federal law enforcement practice, or by federal prosecutorial
discretion.” Federally referred cases that are declined or not prosecuted by
the state or local government are ineligible for reimbursement.

      The nine California counties included in our external audits, listed in
the table below, received SWBPI reimbursements totaling $14.43 million


                                     -9­
from FYs 2002 through 2007, of which we determined that $12.23 million
(85 percent) was unallowable or unsupported, as shown in Table 4.

                              TABLE 4

            SWBPI REIMBURSEMENTS AUDITED FYs 2002 - 2007 13


                                                            TOTAL           PERCENTAGE OF
                                          TOTAL           QUESTIONED       REIMBURSEMENTS
  COUNTIES           REPORT NO.      REIMBURSEMENTS         COSTS            QUESTIONED
                   GR-60-08-001
San Francisco      GR-60-09-003         $ 5,751,149          5,751,149           100%
San Mateo          GR-60-08-010           1,520,999          1,520,999           100%
Humboldt           GR-60-08-011             728,445            555,888             76%
Lake               GR-60-09-001           1,019,095            989,605             97%
San Benito         GR-60-09-002             397,984            397,984           100%
Siskiyou           GR-60-09-005             702,317            702,317           100%
Mendocino          GR-60-09-007           1,910,431          1,910,431           100%
Monterey           GR-60-09-008             192,930             76,804             40%
Santa Clara        GR-60-09-009           2,207,320            323,859             15%
    Totals                            $14,430,670        $12,229,036              85%
Source: OIG

       We also found that seven of the nine counties, consistently submitted
cases that were ineligible for SWBPI because they were initiated by state or
local law enforcement agencies rather than by federal law enforcement
agencies. These locally initiated cases accounted for $11.83 million
(97 percent) of the total questioned costs. As a result, our audit focused on
those seven counties.

      We found that six of the seven counties relied on the same contractor,
PRM, to identify cases and manage their SWBPI reimbursements. The six
counties that used the contractor were: (1) San Francisco County,
(2) San Mateo County, (3) Humboldt County, (4) Lake County,
(5) San Benito County, and (6) Siskiyou County. Generally, we found that
the SWBPI reimbursements submitted for the six counties that used the
contractor were not allowable because a federal law enforcement agency
was not involved in the investigation or arrest. We found that the contractor
incorrectly advised these counties to submit locally initiated cases related to



       13
            Throughout this report, differences in the total amounts are due to rounding.



                                            - 10 ­
undocumented aliens and locally initiated drug cases that were under the
USAO prosecution thresholds.

       The seventh county that consistently submitted locally initiated cases
for reimbursement was Mendocino County. While Mendocino County did not
hire or rely on the contractor, it followed the same practice as the other six
counties and incorrectly submitted locally initiated drug cases that were
under the USAO prosecution thresholds.

      While we found that 17 percent of the cases submitted by Monterey
and Santa Clara Counties for SWBPI reimbursement were unallowable, these
two counties did not use the contractor, and the majority of the cases
submitted were allowable. Specifically, we found that:

   •	 Monterey County received unallowable SWBPI reimbursements totaling
      $76,804 for cases that were: (1) not federally initiated, (2) submitted
      in the wrong quarter, (3) duplicate cases, (4) unavailable to review,
      and (5) not prosecuted.

   •	 Santa Clara County received unallowable SWBPI reimbursement
      totaling $323,859 for cases that were: (1) submitted in the wrong
      disposition category, (2) submitted in the wrong quarter, (3) not in
      violation of a federal criminal law, (4) submitted twice or processed
      concurrently, and (5) claimed under the both prosecution and pre-trial
      detention category that did not meet the requirements for pre-trial
      detention.

       The results of our SWBPI audits were provided to the USAOs for the
Northern and Eastern Districts of California and the OIG Investigations
Division. The USAO for the Northern District of California determined that
because PRM, the contractor, had dissolved and SWBPI funds were received
by San Francisco County rather than PRM, it would not seek charges against
or a civil recovery from the contractor or its employees. Based on the
results of our audits, the USAOs for the Northern and Eastern Districts of
California, with the assistance of the OIG Investigations Division, pursued
civil recoveries on behalf of the United States for the unallowable SWBPI
reimbursements received by the following counties: (1) San Francisco,
(2) San Mateo, (3) Humboldt, (4) Lake, (5) San Benito, (6) Siskiyou, and
(7) Mendocino.

      In addition, OJP has stated it will pursue remedies of the questioned
costs associated with the unallowable SWBPI reimbursements received by
Monterey and Santa Clara Counties.



                                    - 11 ­
      The USAOs for the Northern and Eastern Districts of California, with
the assistance of the OIG Investigations Division, sought reimbursements
from the seven counties to remedy the questioned costs associated with
cases that were not eligible for SWBPI reimbursement. As of February 2010,
the USAOs have reached settlement agreements totaling $11.03 million with
the seven counties and those counties have remitted $9.17 million in
unallowable SWBPI reimbursements back to the United States, as shown in
Table 5.

                         TABLE 5

    SWBPI REIMBURSEMENTS RECOVERED AS OF FEBRUARY 2010


                                                                       AMOUNT RECOVERED
        CALIFORNIA          TOTAL OIG                                   AS OF FEBRUARY
         COUNTIES        QUESTIONED COSTS      SETTLEMENT AMOUNT            2010
 San Francisco              $ 5,751,149             $ 5,228,192           $ 5,228,192
 San Mateo                    1,520,999               1,513,921              1,513,921
 Humboldt                       555,888                 416,986                416,986
 Lake                           989,605                 989,605                989,605
 San Benito                     397,984                 397,984                397,984
 Siskiyou                       702,317                 695,080                200,000
 Mendocino                    1,910,431               1,793,045                425,360
          Totals           $11,828,373              $11,034,813           $9,172,048
Source:	 The OIG Audit Division, USAOs for the Northern and Eastern Districts of California,
         and OJP.

      The results of each of the external audits related to the seven counties
for which the USAOs, with the assistance of the OIG Investigations Division,
have pursued reimbursement of unallowable SWBPI reimbursements on
behalf of the United States are discussed in more detail in the following
sections of this report.

San Francisco

      We conducted two external audits of the SWBPI reimbursements
received by San Francisco County, with the first report issued in November
2007 and the second report in October 2008.




                                           - 12 ­
November 2007 Audit

       The November 2007 Report, GR-60-08-001, included all SWBPI
reimbursements received by San Francisco County since it began
participating in the program through FY 2006. During the period covered by
our audit, San Francisco County received SWBPI reimbursements totaling
$5,414,895, as shown in Table 6.

                        TABLE 6
 SAN FRANCISCO COUNTY SWBPI REIMBURSEMENTS AS OF FY 2006

                            START                AMOUNT         AMOUNT
  REPORTING PERIOD                   END DATE
                            DATE                REQUESTED     REIMBURSED
 FY04 1st Quarter         10/01/03   12/31/03      $20,000        $16,200
 FY04 2nd Quarter         01/01/04   03/31/04      $15,000        $12,150
 FY04 3rd Quarter         04/01/04   06/30/04      $12,500        $10,125
 FY04 4th Quarter            N/A        N/A        N/A             N/A
 FY05 1st Quarter         10/01/04   12/31/04     $127,500        $62,841
 FY05 2nd Quarter         01/01/05   03/31/05   $1,817,500       $801,165
 FY05 3rd Quarter         04/01/05   06/30/05     $860,000       $407,652
 FY05 4th Quarter         07/01/05   09/30/05     $872,500       $437,618
 FY06 1st Quarter         10/01/05   12/31/05   $1,890,000     $1,005,128
 FY06 2nd Quarter         01/01/06   03/31/06   $1,882,500       $896,338
 FY06 3rd Quarter         04/01/06   06/30/06   $2,125,000       $915,559
 FY06 4th Quarter         07/01/06   09/30/06   $1,930,000       $850,120
 TOTAL                                                        $5,414,895
Source: Office of Justice Programs

      Based on the results of our initial audit, we determined that each of
the SWBPI reimbursements totaling $5,414,895 received by San Francisco
County were unallowable because none of the 2,241 cases submitted were
federally initiated.

      We began our fieldwork in San Francisco County, on August 20, 2007.
After reviewing several case files we found that none of the cases we
reviewed were eligible under the SWBPI guidelines. San Francisco officials
then told us that the master case list they provided to us was incorrect. To
give them time to provide us with a corrected case list, we rescheduled the
audit to start on September 10, 2007.

     We selected a new sample of 152 cases from the revised case list
submitted by San Francisco to review to determine whether the cases were




                                      - 13 ­
eligible for reimbursement under the requirements of the SWBPI guidelines.
Our sample included both prosecution and pre-trial detention cases. 14

      We reviewed 71 of the 152 case files requested and found no evidence
of federal initiation. We discussed this issue with San Francisco officials,
who said that they had misinterpreted the SWBPI guidelines. According to
San Francisco officials, the SWBPI reimbursement requests were not based
on actual cases. Instead, according to San Francisco officials at that time,
the county submitted approximately 30 percent of its drug cases, believing
that at least this percentage would fall under the U.S. Attorney’s blanket
declination policy. 15 Therefore, San Francisco was unable to provide a listing
of cases submitted for reimbursements because the SWBPI submissions
were not based on specific cases.

       Additionally, according to San Francisco officials, they did not consider
the fact that the cases had to be initiated by a federal law enforcement
agency or task force in order to be eligible for reimbursement under the
SWBPI guidelines. We found in our audit that the cases included on the final
master list created by San Francisco, which were selected to represent the
types of cases San Francisco had submitted for reimbursement, were
ineligible under the SWBPI guidelines. We determined that San Francisco
received unallowable SWBPI reimbursements totaling $5,414,895 for the
2,241 cases submitted because they were not federally initiated.

      As stated previously, San Francisco hired a contractor, PRM, in
February 2005, to manage its SWBPI claim reimbursement process. We
determined that the guidance provided by the contractor was materially
inaccurate. When we questioned the contractor’s representative as to why
cases that did not meet SWBPI criteria for reimbursement were submitted,
the contractor’s representative stated that the contractor may have been
confused about the difference between the criteria for reimbursement under
SWBPI and the criteria for reimbursement under another federal
reimbursement program he administered for San Francisco called SCAAP.
This suggests that he did not research the requirements of the SWBPI
program as required by the contract. The contractor’s representative also


       14
         On September 7, 2007, San Francisco officials informed us the case files
requested for review might not contain evidence that the cases were federally initiated.
However, we decided that it to continue our audit on September 10, 2007, as planned, to
determine whether the cases were allowable under the SWBPI guidelines.
       15
           Many U.S. Attorneys have developed prosecution guidelines that govern the most
common violations of federal law. These guidelines establish blanket policies for which
cases will be prosecuted federally and which cases will be automatically referred to a state
or location jurisdiction for prosecution.



                                           - 14 ­
stated that the contractor did not understand the SWBPI guidelines, despite
the fact that the contractor obtained the contract based on the contractor’s
professed expertise related to SWBPI.

       We determined that in FY 2006, while using the incorrect criteria
provided by the contractor of submitting SCAAP cases, San Francisco
County’s SWBPI reimbursements began to decline. As a result, beginning in
March 2006, San Francisco County officials decided also to start including
locally initiated drug cases in its SWBPI reimbursement requests. The
decision was based on the presumption that because the drug cases
submitted were under the USAO’s blanket declination thresholds, the cases
were allowable because the USAO would decline to prosecute the cases if the
cases had been submitted to the USAO for prosecution. However, this
presumption violated SWBPI guidelines, because San Francisco could not
demonstrate that these cases were initiated by federal law enforcement
agencies. Additionally, the drug cases submitted by San Francisco County
were never presented to the USAO for prosecution and thus were not
declined by the USAO.

       According to San Francisco County officials, the contractor’s
representative was aware that San Francisco County was including locally
initiated drug cases in its SWBPI reimbursements and never informed them
that locally initiated drug cases were not eligible for SWBPI reimbursement.

October 2008 Audit

       The OIG conducted a follow up audit of the SWBPI reimbursements
received by San Francisco County and issued Report GR-60-09-003 in
October 2008. In our follow-up audit, we found that after we had issued the
draft report for our first audit of San Francisco County in October 2007, San
Francisco County officials decided to continue to request additional SWBPI
funds until the final report was issued. As a result, San Francisco County
requested and received SWBPI reimbursement for 83 cases totaling
$336,254 for the quarter ending December 31, 2006, following the same
incorrect reimbursement criteria that we had questioned in our first audit.
According to San Francisco County Officials, the reimbursement request was
submitted using the same incorrect criteria because at the time the
contractor’s representative was still maintaining that he had correctly
interpreted the SWBPI guidelines. As a result, we questioned all of the
additional $336,254 in SWBPI reimbursements received by San Francisco
County as unallowable. When combined with the unallowable
reimbursements identified in our prior audit, we found that San Francisco
County received unallowable SWBPI reimbursements totaling $5,751,149.



                                   - 15 ­
Repayment

      In February 2008, through an agreement with the USAO,
San Francisco made an initial repayment of $2.7 million to DOJ to remedy
the unallowable SWBPI reimbursements. Additionally, the USAO gave
San Francisco the opportunity to identify any eligible cases, not submitted
previously, to support any remaining portion of the funds it received.

       San Francisco submitted 134 supplemental cases to replace the
unallowable cases for which it had previously received SWBPI
reimbursements. San Francisco estimated the supplemental cases were
eligible for maximum SWBPI reimbursements totaling $1,170,000 under the
“both” prosecution and pretrial detention reimbursement category.

       Based on our review of the 134 supplemental cases submitted by
San Francisco, we determined that 128 supplemental cases provided by
San Francisco County would have been eligible for SWBPI reimbursements
totaling $522,957.16 Therefore, we determined that the remaining net
unallowable SWBPI reimbursements for San Francisco County totaled
$2,528,192, as shown in Table 7.




       16
           We identified eight cases that were not eligible for reimbursement. Additionally,
we identified 36 cases that did not meet the pre-trial detention services requirement; as a
result, the cases were only eligible for half the maximum reimbursement. In total, we
identified 90 cases that were eligible for the “both” prosecution and pre-trial detention
reimbursement category, and an additional 36 cases were eligible for the prosecution only
reimbursement category. To calculate the allowable reimbursement amount, we
determined the maximum reimbursement for each case based on the length of disposition
and then applied the pro-rata reimbursement percentages applicable to each quarter.



                                           - 16 ­
                               TABLE 7

              CALCULATION OF UNALLOWABLE SWBPI FUNDS

                 STILL OWED BY SAN FRANCISCO COUNTY


Unallowable SWBPI Reimbursements Identified in
the November 2007 Prior Audit                                        $5,414,895
Unallowable SWBPI Reimbursements Received
Subsequent to the November 2007 Prior Audit                              336,254
  Total Unallowable SWBPI Reimbursements                           $5,751,149
Less: Unallowable SWBPI Reimbursements Repaid
in February 2008                                                    ($2,700,000)
Less: Allowable SWBPI Reimbursements Identified
for subsequent SWBPI Cases Submitted                                    (522,957)
  Total Remaining Unallowable SWBPI Funds                          $2,528,192

      Based on the results of our two external audits of the SWBPI
reimbursements received by San Francisco County, the USAO for the
Northern District of California and San Francisco County entered into an
agreement on October 16, 2008, in which San Francisco County agreed to
pay the balance of $2,528,192 to the Department of Justice. This brought
San Francisco County’s total agreed upon repayment of SWBPI funds to
$5,228,192. 17

San Mateo County

      The OIG conducted an external audit of the SWBPI reimbursements
received by San Mateo County, and issued Report GR-60-08-010 in August
2008. The audit included all SWBPI reimbursements received by San Mateo
County since it began participating in the program through FY 2007. During
the period covered by our audit, San Mateo County received SWBPI
reimbursements totaling $1,520,999, as shown in Table 8.




       17
           Subsequent to the issuance of the letter from the USAO for the Northern District
of California, San Francisco remitted the remaining $2,528,192 in unallowable SWBPI
reimbursements back to the United States on October 16, 2008.



                                           - 17 ­
                         TABLE 8

    SAN MATEO COUNTY SWBPI REIMBURSEMENTS AS OF FY 2007


                             START                AMOUNT           AMOUNT
  REPORTING PERIOD                    END DATE
                             DATE                REQUESTED       REIMBURSED
 FY04 1st Quarter          10/01/03   12/31/03     $76,250          $61,763
 FY04 2nd Quarter          01/01/04   03/31/04    $111,250          $90,113
 FY04 3rd Quarter          04/01/04   06/30/04    $113,750          $92,138
 FY04 4th Quarter             N/A        N/A        N/A              N/A
 FY05 1st Quarter          10/01/04   12/31/04    $106,250          $52,368
 FY05 2nd Quarter          01/01/05   03/31/05    $181,250          $79,896
 FY05 3rd Quarter          04/01/05   06/30/05    $135,000          $63,992
 FY05 4th Quarter          07/01/05   09/30/05    $123,750          $62,069
 FY06 1st Quarter          10/01/05   12/31/05    $167,500          $89,079
 FY06 2nd Quarter          01/01/06   03/31/06    $122,500          $58,327
 FY06 3rd Quarter          04/01/06   06/30/06    $213,750          $92,094
 FY06 4th Quarter          07/01/06   09/30/06    $260,000         $114,524
 FY07 1st Quarter          10/01/06   12/31/06    $308,750         $161,585
 FY07 2nd Quarter          01/01/07   03/31/07    $297,500         $156,033
 FY07 3rd Quarter          04/01/07   06/30/07    $288,750         $141,584
 FY07 4th Quarter          07/01/07   09/30/07    $358,750         $205,436
 TOTAL                                                          $1,520,999
Source: Office of Justice Programs

      We found that San Mateo County hired the same contractor, PRM,
used by San Francisco County to manage its SWBPI claim reimbursement
process. San Mateo County officials first learned of the SWBPI program at a
presentation made by the contractor to a group of representatives from
multiple California sheriffs’ offices. San Mateo County officials had used the
contractor in the past and decided to utilize its services to begin applying for
SWBPI reimbursements.

      Our audit found that San Mateo County officials relied on the
contractor’s guidance to determine which cases would be eligible for SWBPI
reimbursement. Among the guidance given to San Mateo County officials by
the contractor was that any SCAAP case would automatically be eligible for
SWBPI reimbursements. This guidance was incorrect, since SCAAP cases are
only eligible for SWBPI reimbursements if they also meet SWBPI criteria.

       We also found that the San Mateo County’s District Attorney’s Office
believed the cases did not meet SWBPI criteria, and did not want to
participate in SWBPI reimbursements for the prosecution aspect of the
selected cases. As a result, only the San Mateo County’s Sheriff’s Office
claimed and received reimbursements for the pre-trial detention portion of
the SWBPI program.


                                      - 18 ­
       When San Mateo County officials became aware of the results of our
prior audit of SWBPI reimbursements received by San Francisco County,
they acknowledged that all their SWBPI reimbursements were ineligible
because none of the cases were federally initiated. As a result, we
questioned all of San Mateo County’s unallowable SWBPI reimbursements
totaling $1,520,999 for the 1,076 cases submitted.

      The USAO for the Northern District of California provided San Mateo
County the opportunity to address the questioned costs identified in our
audit. San Mateo County was able to provide documentation supporting
$7,078 of its $1,520,999 in SWBPI reimbursements. As a result, the USAO
entered into a settlement agreement with San Mateo County, on
January 28, 2009, through which San Mateo County was required to remit
the remaining unallowable SWBPI reimbursement of $1,513,921 (the
Settlement Amount) back to the United States. San Mateo County agreed to
repay the Settlement Amount in two installments. 18

Humboldt County

      The OIG conducted an external audit of the SWBPI reimbursements
received by Humboldt County, and issued Report GR-60-08-011, in August
2008. The audit included all SWBPI reimbursements received by Humboldt
County since it began participating in the program through FY 2007. During
the period covered by our audit, Humboldt County received SWBPI
reimbursements totaling $728,445, as shown in Table 9.




      18
         The first installment of $760,500 was remitted back to the United States on
February 12, 2009, and the second installment of $753,421 was remitted on
August 10, 2009.



                                          - 19 ­
                         TABLE 9

     HUMBOLDT COUNTY SWBPI REIMBURSEMENTS AS OF FY 2007


                             START                AMOUNT      AMOUNT
  REPORTING PERIOD                    END DATE
                             DATE                REQUESTED   REIMBURSED
 FY05 2nd Quarter          01/01/05   03/31/05   $130,000       $57,305
 FY05 3rd Quarter          04/01/05   06/30/05   $140,000       $66,362
 FY05 4th Quarter          07/01/05   09/30/05   $172,500       $86,520
 FY06 1st Quarter          10/01/05   12/31/05   $162,500       $86,420
 FY06 2nd Quarter          01/01/06   03/31/06   $207,500       $98,799
 FY06 3rd Quarter          04/01/06   06/30/06   $100,000       $43,085
 FY06 4th Quarter          07/01/06   09/30/06   $165,000       $72,679
 FY07 1st Quarter          10/01/06   12/31/06    $87,500       $45,793
 FY07 2nd Quarter          01/01/07   03/31/07    $60,000       $31,469
 FY07 3rd Quarter          04/01/07   06/30/07   $160,000       $78,454
 FY07 4th Quarter          07/01/07   09/30/07   $107,500       $61,559
 TOTAL                                                        $728,445
Source: Office of Justice Programs

     Humboldt County hired the same contractor, PRM, to manage its
SWBPI claim reimbursement process. The contractor advised Humboldt
County officials to submit federally initiated and SCAAP cases for SWBPI
reimbursement. However, as noted above, SCAAP cases are only eligible for
SWBPI reimbursements if they also meet SWBPI criteria.

       We selected and analyzed the cases submitted by Humboldt County to
determine whether the cases were eligible for reimbursement under the
requirements of the SWBPI guidelines. We identified 61 cases that were
allowable for SWBPI reimbursement, and the remaining 179 cases were not
allowable because they were not federally initiated. Specifically, we
determined that Humboldt County received unallowable reimbursements
totaling $525,347 for 179 cases that were not federally initiated.

       Additionally, for the 61 cases that were federally initiated, we
determined that Humboldt County received excess reimbursements totaling
$30,542 for 15 cases that were claimed under the both prosecution and pre­
trial detention category. These cases should have been claimed as
prosecution only because the defendant was not held overnight. As a result,
we identified questioned costs totaling $555,888 ($525,347 + $30,542).

      The USAO for the Northern District of California provided Humboldt
County the opportunity to address the questioned costs identified in our
audit. Humboldt County was able to provide documentation supporting
$138,902 of its $555,888 in SWBPI reimbursements. As a result, the USAO



                                      - 20 ­
entered into a settlement agreement with Humboldt County, on
January 28, 2009, through which Humboldt County was required to remit
the remaining unallowable SWBPI reimbursement of $416,986 (the
Settlement Amount) back to the United States. 19

Lake County

      The OIG conducted an external audit of the SWBPI reimbursements
received by Lake County, and issued Report GR-60-09-001, in October
2008. The audit included all SWBPI reimbursements received by Lake
County since it began participating in the program through FY 2007. During
the period covered by our audit, Lake County received SWBPI
reimbursements totaling $1,019,095, as shown in Table 10.

                              TABLE 10

           LAKE COUNTY SWBPI REIMBURSEMENTS AS OF FY 2007


                             START                      AMOUNT            AMOUNT
  REPORTING PERIOD                      END DATE
                             DATE                     REQUESTED         REIMBURSED
 FY06 1st Quarter          10/01/05     12/31/05      $102,500             $54,511
 FY06 2nd Quarter          01/01/06     03/31/06        $95,000            $45,234
 FY06 3rd Quarter          04/01/06     06/30/06        $87,500            $37,699
 FY06 4th Quarter          07/01/06     09/30/06        $65,000            $28,631
 FY07 1st Quarter          10/01/06     12/31/06       $270,000           $141,305
 FY07 2nd Quarter          01/01/07     03/31/07      $550,000            $288,464
 FY07 3rd Quarter          04/01/07     06/30/07      $597,500            $292,975
 FY07 4th Quarter          07/01/07     09/30/07      $227,500            $130,276
 TOTAL                                                                 $1,019,095
Source: Office of Justice Programs

       Lake County hired the same contractor, PRM, to manage its SWBPI
claim reimbursement process. Among the guidance given to Lake County
officials by the contractor was that locally initiated cases in which the
defendant was arrested on federal land, as well as Indian reservations, were
eligible for SWBPI reimbursement. The contractor also told Lake County
officials that locally initiated cases, for which an immigration hold was placed
on the defendant, were eligible for SWBPI reimbursement. However, as
noted above, the guidance given by the contractor was incorrect, since
federal initiation is a requirement in the SWBPI criteria.



      19
            Humboldt County agreed to repay the Settlement Amount in two installments.
The first installment of $208,493 was remitted back to the United States on
January 10, 2009, and the second installment of $208,493 was remitted on July 7, 2009.



                                         - 21 ­
        Upon reading our previous audit of San Francisco’s SWBPI
reimbursements, Lake County officials realized it had used the same
contractor and that the majority of its cases were ineligible. Based on an
initial assessment of the cases submitted for SWBPI reimbursement, Lake
County repaid $700,455 of the total SWBPI funds received. After Lake
County was notified of our audit, Lake County officials reviewed all cases
that had been submitted for SWBPI reimbursement and determined that all
but 10 cases were ineligible because the cases were not federally initiated.
We confirmed that the $29,490 in SWBPI reimbursements received for the
10 cases identified by Lake County was allowable. As a result, we found that
Lake County received unallowable SWBPI reimbursements totaling $989,605
for 264 cases because the cases were not federally initiated, of which
$289,150 was still owed to DOJ.

      The USAO for the Northern District of California provided Lake County
the opportunity to address the questioned costs identified in our audit. As a
result, the USAO entered into a settlement agreement with Lake County, on
December 16, 2008, through which Lake County remitted the remaining
unallowable SWBPI reimbursement of $289,150 owed to the United States.

San Benito County

      The OIG conducted an external audit of the SWBPI reimbursements
received by San Benito County, and issued Report GR-60-09-002, in October
2008. The audit included all SWBPI reimbursements received by San Benito
County since it began participating in the program through FY 2007. During
the period covered by our audit, San Benito County received SWBPI
reimbursements totaling $397,984, as shown in Table 11.




                                    - 22 ­
                         TABLE 11

    SAN BENITO COUNTY SWBPI REIMBURSEMENTS AS OF FY 2007


                             START                AMOUNT       AMOUNT
  REPORTING PERIOD                    END DATE
                             DATE                REQUESTED   REIMBURSED
 FY05 2nd Quarter          01/01/05   03/31/05    $92,500       $40,775
 FY05 3rd Quarter             N/A        N/A        N/A          N/A
 FY05 4th Quarter             N/A        N/A        N/A          N/A
 FY06 1st Quarter          10/01/05   12/31/05    $12,500        $6,648
 FY06 2nd Quarter          01/01/06   03/31/06   $120,000       $57,137
 FY06 3rd Quarter          04/01/06   06/30/06    $90,000       $38,777
 FY06 4th Quarter          07/01/06   09/30/06   $146,250       $64,420
 FY07 1st Quarter          10/01/06   12/31/06   $117,500       $61,494
 FY07 2nd Quarter          01/01/07   03/31/07    $95,000       $49,826
 FY07 3rd Quarter          04/01/07   06/30/07    $67,500       $33,098
 FY07 4th Quarter          07/01/07   09/30/07    $80,000       $45,811
 TOTAL                                                        $397,984
Source: Office of Justice Programs

      San Benito officials hired the same contractor, PRM, to manage its
SWBPI claim reimbursement process, and relied on the advice of the
contractor for the selection of cases submitted for SWBPI reimbursement.
Among the guidance given to San Benito officials by the contractor was that
a case that was initiated by local law enforcement, but which could be
prosecuted on a federal level, would be eligible for SWBPI reimbursement.

      We selected and analyzed a sample of 52 cases submitted by
San Benito to determine whether the cases were eligible for reimbursement
under the requirements of the SWBPI guidelines. We found no evidence of
federal initiation during our review of the cases submitted for SWBPI
reimbursement. As a result, we determined that San Benito received
unallowable SWBPI reimbursements totaling $397,984 for the 103 cases
submitted because the cases were not federally initiated.

      The USAO for the Northern District of California provided San Benito
County the opportunity to address the questioned costs identified in our
audit. San Benito County was not able to provide documentation supporting
any of its SWBPI reimbursements. As a result, the USAO entered into a
settlement agreement with San Benito County, on January 27, 2009,
through which San Benito County was required to remit the unallowable




                                      - 23 ­
SWBPI reimbursement of $397,984 (the Settlement Amount) back to the
United States. 20

Siskiyou County

      The OIG conducted an external audit of the SWBPI reimbursements
received by Siskiyou County, and issued Report GR-60-09-005, in December
2008. The audit included all SWBPI reimbursements received by Siskiyou
County since it began participating in the program through FY 2007. During
the period covered by our audit, Siskiyou County received SWBPI
reimbursements totaling $702,317, as shown in Table 12.

                         TABLE 12
     SISKIYOU COUNTY SWBPI REIMBURSEMENTS AS OF FY 2007

                             START                     AMOUNT            AMOUNT
  REPORTING PERIOD                      END DATE
                             DATE                     REQUESTED        REIMBURSED
 FY05 2nd Quarter          01/01/05     03/31/05       $25,000           $11,020
 FY05 3rd Quarter          04/01/05     06/30/05      $167,500           $79,397
 FY05 4th Quarter          07/01/05     09/30/05      $192,500           $96,552
 FY06 1st Quarter          10/01/05     12/31/05      $447,500          $236,840
 FY06 2nd Quarter          01/01/06     03/31/06       $50,000           $23,807
 FY06 3rd Quarter          04/01/06     06/30/06       $50,000           $21,543
 FY06 4th Quarter          07/01/06     09/30/06      $167,500           $73,780
 FY07 1st Quarter          10/01/06     12/31/06      $120,000           $62,802
 FY07 2nd Quarter          01/01/07     03/31/07       $57,500           $30,158
 FY07 3rd Quarter          04/01/07     06/30/07       $97,500           $47,808
 FY07 4th Quarter          07/01/07     09/30/07       $32,500           $18,611
 TOTAL                                                                 $702,317
Source: Office of Justice Programs

      Siskiyou County hired the same contractor, PRM, to manage its SWBPI
claim reimbursement process. Siskiyou County officials relied on the
contractor’s guidance to determine which cases would be eligible for SWBPI
reimbursement. Among the guidance the contractor gave to Siskiyou
County officials was that all cases that could have been prosecuted by the
federal government would be allowable. The example given to the auditors
by Siskiyou County officials were cases where the defendant was arrested by
state or local authorities on violations of drug laws, because the defendant
could have been prosecuted federally in violation of federal drug laws.


      20
         San Benito County agreed to repay the Settlement Amount in two installments of
$198,992. The first installment was remitted back to the United States on
January 29, 2009, and the second installment was remitted on July 13, 2009.



                                        - 24 ­
Specifically, the written guidance given to Siskiyou County by the contractor
stated, “What we are looking for are all potential violations of a federal
criminal law. To put it another way, these are cases that the Feds could get
involved with and would have jurisdiction over, if they chose to do so.”
However, the contractor’s guidance was incorrect, because federal initiation
is a requirement in the SWBPI criteria.

      We selected and analyzed a sample of 50 cases submitted by Siskiyou
County to determine whether the cases were eligible for reimbursement
under the requirements of the SWBPI guidelines. We found no evidence of
federal initiation during our review of the cases submitted for SWBPI
reimbursement. Additionally, Siskiyou County officials were provided the
opportunity to identify any cases that might have been federally initiated;
however, they were unable to find any such cases at the time of our audit.
As a result, we determined that Siskiyou County received unallowable SWBPI
reimbursements totaling $702,317 for the 259 cases submitted because the
cases were not federally initiated.

      The USAO for the Eastern District of California provided Siskiyou
County the opportunity to address the questioned costs identified in our
audit. Siskiyou County was able to provide documentation supporting
$7,237 of its $702,317 in SWBPI reimbursements. As a result, the USAO
entered into a Settlement Agreement with Siskiyou County, on
November 3, 2009, through which Siskiyou County has agreed to remit back
to the United States the remaining unallowable SWBPI reimbursement of
$695,080 (the Settlement Amount). 21

Mendocino County

      The OIG conducted an external audit of the SWBPI reimbursements
received by Mendocino County, and issued Report GR-60-09-007, in
December 2008. The audit included all SWBPI reimbursements received by
Mendocino County since it began participating in the program through
FY 2007. During the period covered by our audit, Mendocino County
received SWBPI reimbursements totaling $1,910,431, as shown in Table 13.




       21
          Siskiyou County has agreed the repay the Settlement Amount in four
installments, with 3 percent annual interest accruing on the balance remaining after
December 1, 2009. The first installment of $200,000 was paid on November 12, 2009, the
second installment of $175,026 shall be paid prior to December 1, 2010, the third
installment of $175,026 shall be paid prior to December 1, 2011, and the fourth installment
of $175,026 shall be paid prior to December 1, 2012.



                                          - 25 ­
                        TABLE 13

    MENDOCINO COUNTY SWBPI REIMBURSEMENTS AS OF FY 2007


                            START                AMOUNT           AMOUNT
  REPORTING PERIOD                   END DATE
                            DATE                REQUESTED       REIMBURSED
 FY02 All Quarters        10/01/01   09/30/02   $223,750           $223,750
 FY03 1st and 2nd
                          10/01/02   03/31/03    $112,500          $112,500
 Quarters
 FY03 3rd Quarter         04/01/03   06/30/03     $55,000           $55,000
 FY03 4th Quarter         07/01/03   09/30/03     $71,250           $71,250
 FY04 1st Quarter         10/01/03   12/31/03     $70,000           $70,000
 FY04 2nd Quarter         01/01/04   03/31/04     $70,000           $70,000
 FY04 3rd Quarter         04/01/04   06/30/04     $53,750           $43,538
 FY04 4th Quarter            N/A        N/A         N/A             N/A
 FY05 1st Quarter         10/01/04   12/31/04     $10,000            $4,929
 FY05 2nd Quarter         01/01/05   03/31/05     $25,000           $11,020
 FY05 3rd Quarter         04/01/05   06/30/05     $38,750           $18,368
 FY05 4th Quarter         07/01/05   09/30/05     $37,500           $18,809
 FY06 1st Quarter         10/01/05   12/31/05    $225,000          $119,658
 FY06 2nd Quarter         01/01/06   03/31/06    $245,000          $116,655
 FY06 3rd Quarter         04/01/06   06/30/06    $252,500          $108,790
 FY06 4th Quarter         07/01/06   09/30/06    $235,000          $103,512
 FY07 1st Quarter         10/01/06   12/31/06    $347,500          $181,865
 FY07 2nd Quarter         01/01/07   03/31/07    $350,000          $183,568
 FY07 3rd Quarter         04/01/07   06/30/07    $305,000          $149,552
 FY07 4th Quarter         07/01/07   09/30/07    $432,500          $247,668
 TOTAL                                                         $1,910,431
Source: Office of Justice Programs

        Unlike the previous six counties included in our audit, Mendocino
County did not use PRM to manage its SWBPI reimbursements requests.
However, we included Mendocino County in our audit because, like the
previous six counties, Mendocino County submitted locally initiated cases
based on an incorrect interpretation of the criteria. According the Mendocino
County Officials, a former District Attorney created criteria to search for
cases that he believed would be eligible for SWBPI reimbursements. The
criteria included any case in which the defendant was an undocumented
alien, regardless of whether the case was federally initiated. However, the
case selection criteria used by Mendocino County was incorrect, since federal
initiation is a requirement in the SWBPI criteria.

      We selected and analyzed a sample of 107 cases submitted by
Mendocino County to determine whether the cases were eligible for
reimbursement under the requirements of the SWBPI guidelines. We found
no evidence of federal initiation for any of the cases included in our review.


                                      - 26 ­
As a result, we determined that Mendocino County received unallowable
SWBPI reimbursements totaling $1,910,431 for the 710 cases submitted
because the cases were not federally initiated.

      The USAO for the Eastern District of California provided Mendocino
County the opportunity to address the questioned costs identified in our
audit. Mendocino County was able to provide documentation supporting
$117,423 of its $1,910,431 in SWBPI reimbursements. As a result, the
USAO entered into a Settlement Agreement with Mendocino County, on
June 24, 2009, through which Mendocino County agreed to remit back to the
United States the remaining unallowable SWBPI reimbursement of
$1,793,045. 22

Conclusion

       As noted previously, in March 2008, the Office of the Inspector General
(OIG), Audit Division, issued an audit report on the Southwest Border
Prosecution Initiative Reimbursement Program (Report No. 08-22). The
prior report found that OJP did not adequately oversee the SWBPI program.
The findings specifically related to the results of this audit included that at
the time:

   •	 OJP did not require applicants to provide documentation supporting
      reimbursement requests.

   •	 OJP did not review the applications for accuracy or monitor recipients
      to determine the eligibility of cases submitted for reimbursement.

       In response to our prior audit, OJP implemented corrective actions to
assist in ensuring that: (1) reimbursement requests only include eligible
cases; (2) reimbursement amounts are linked to actual costs; and
(3) reimbursements do not exceed actual costs and are adjusted to reflect
other federal prosecution and detention funding received by SWBPI
participants.

      In this audit we examined specifically SWBPI reimbursements awarded
to nine California counties and identified additional weaknesses in the SWBPI
program. These audits identified $12.23 million in unallowable SWBPI
       22
          Mendocino County has agreed the repay the Settlement Amount in four
installments, with 3 percent annual interest accruing on the balance remaining after
January 2, 2010. The first installment of $425,360 was paid on January 7, 2010, the
second installment of $469,572 shall be paid prior to January 1, 2011, the third installment
of $483,659 shall be paid prior to January 1, 2012, and the fourth installment of $498,209
shall be paid prior to January 1, 2013.



                                           - 27 ­
reimbursements, which represents 85 percent of the total funding received
by these counties.

       In our judgment, OJP should implement additional procedures to
analyze SWBPI reimbursements to timely identify and follow up on
anomalies that may indicate errors related to reimbursement requests for
specific jurisdictions. For example, we noted that in the last quarter of
FY 2006, San Francisco County, despite being located about 500 miles north
of the Southwest Border, received the highest reimbursement of any SWBPI
participant, including jurisdictions located on the border, such as San Diego
County, California, and El Paso County, Texas. This should have been a “red
flag” issue that OJP identified and followed up on much earlier in the process
to make sure that the reimbursements requested by and paid to
San Francisco County were compliant with SWBPI guidelines. As previously
noted, our audit of San Francisco County identified over $5.7 million in
unallowable reimbursements, representing almost one-half of all questioned
costs for the California counties we audited.

       We also found that from FYs 2004 through 2007 San Francisco County
and five other California counties used the same contractor, PRM, to manage
their SWBPI reimbursements and that the guidance provided by the
contractor to the counties for submitting cases for SWBPI reimbursement
was materially inaccurate. The reimbursements received by the other eight
counties included in this audit also appeared high based on the size of the
counties and their location in relation to the Southwest Border. Again, these
are anomalies that OJP should have identified and followed up on much
earlier in the process.

Recommendation

      As a result of our most recent audit work and to further improve the
SWBPI program, we recommend that OJP: implement procedures to analyze
SWBPI reimbursements to identify anomalies that may indicate unallowable
or unsupported payments to specific jurisdictions.




                                    - 28 ­
            STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards we tested as
appropriate, internal controls significant within the context of our audit
objective. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations. Our evaluation of OJP’s internal controls was not
made for the purpose of providing assurance on its internal control structure
as a whole. OJP’s management is responsible for the establishment and
maintenance of internal controls.

       Through our audit testing, we did not identify any deficiencies in OJP’s
internal controls that are significant within the context of the audit objective
and based upon the audit work performed that we believe would affect OJP’s
ability to effectively and efficiently operate, to correctly state financial and
performance information, and to ensure compliance with laws, regulations,
and other applicable requirements.




                                     - 29 ­
           STATEMENT ON COMPLIANCE WITH LAWS

                    AND REGULATIONS


       As required by the Government Auditing Standards we tested, as
appropriate given our audit scope and objective, selected transactions,
records, procedures, and practices, to obtain reasonable assurance that
OJP’s management complied with federal laws and regulations that, for
which noncompliance, in our judgment could have a material effect on the
results of our audit. OJP’s management is responsible for ensuring
compliance with federal laws and regulations applicable to the SWBPI
program. In planning our audit, we identified the following laws and
regulations that concerned the operations of the auditee and that were
significant within the context of the audit objective:
(1) Pub. L. No. 107- 7 (2001); (2) the Departments of Commerce, Justice,
and State, the Judiciary, and Related Agencies Appropriations Act, 2002;
and (3) all subsequent SWBPI appropriations.

      Our audit included examining, on a test basis, OJP’s compliance with
the aforementioned laws and regulations that could have a material effect on
OJP’s operations, through conducting external audits of SWBPI recipients.
Nothing came to our attention that caused us to believe that OJP was not in
compliance with the aforementioned laws and regulations.




                                   - 30 ­
                                                               APPENDIX I

            OBJECTIVE, SCOPE, AND METHODOLOGY

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objective.

      The objective of the audit was to summarize the results of our external
audits conducted at the request of the USAO for the Northern District of
California and the OIG Investigations Division.

      The audit generally covered, but is not limited to, SWBPI
reimbursements awarded from FYs 2002 through 2007. We conducted
external audits of nine SWBPI recipients to determine if SWBPI
reimbursements were allowable, supported, and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the
SWBPI program. The external audits were conducted at the following
selected SWBPI California County recipients: (1) San Francisco, Reports
GR-60-08-001 and GR-60-09-003; (2) San Mateo, Report GR-60-08-010;
(3) Humboldt, Report GR-60-08-011; (4) Lake, Report GR-60-09-001;
(5) San Benito, Report GR-60-09-002; (6) Siskiyou, Report GR-60-09-005;
(7) Mendocino, Report GR-60-09-007; (8) Monterey, Report GR-60-09-008;
and (9) Santa Clara, Report GR-60-09-009.

      To determine if SWBPI reimbursements were allowable, supported,
and in accordance with applicable laws, regulations, guidelines, and terms
and conditions of the SWBPI program, we:

  •	 selected a judgmental sample of SWBPI recipients and conducted
     audits of OJP’s administration of the selected recipients, and

  •	 assessed the allowability of cases reimbursed in accordance with
     applicable laws, regulations, guidelines, and terms and conditions of
     the program.

Our sample selection methodology was not designed with the intent of
projecting our results to the entire universe of SWBPI recipients.




                                   - 31 ­
     We included the work performed in prior OIG SWBPI audits in our
assessment of the allowability of cases reimbursed.




                                 - 32 ­
                                                                                     APPENDIX II

                                                     u.s. Department of Justice
                                                     Office of Justice Programs

                                                     Office of Ih e Assi.l·rant At/omey General




[FEB 2 4 2010'

MEMORANDUM TO:               Glenn A. Fine
                             Inspector General
                             United States Department of Justice

THROUGH:                     Raymond J. Beaudet
                             Assistant Inspector General for Audit
                             Office of the Inspector General
                             United States Department of Justice

FROM:                        Laurie O. Robinson         ~
                             Assistant Attorney General ~

SUBJECT:                     Response to Office of the Inspector General's Draft Audit Report,
                             Southwest Border Prosecution Initiative Reimbursements

        This memorandum provides a response to the recommendation directed to the Office of
Justice Programs (OJP) included in the Office ofthe Inspector General's (OIG's) draft audit
report entitled, Soulhwest Border Proseculion Iniliative Reimbursements.

       The draft audit report contains one recommendation and no questioned costs directed to
the OJP. For ease of review, the draft audit report recommendation is restated in bold and is
followed by OlP's response.

        As a result of our most recent audit work and to further improve the SWRPI
        program, we recommend that OJP: implement procedures to analyze SWBPI
        reimbursements to identify anomalies that may indicate unallowable or
        unsupported payments to specific jurisdictions.

        The Office of Justice Programs agrees with the recommendation. During fiscal year
        2009, the Bureau of Justice Assistance (BJA) implemented changes to thc Southwest
        Border Prosecution Initiative (SWBPI) system to allow for the collection and analysis of
        case and cost data submitted by jurisdictions. BJA has already begun analyzing these
        data to assess payment trends and identify duplicate cases or defendants. By
        Junc 30, 2010, BJA anticipates implementing inlernal guidclil1e~ to ensure that SWBPI
        reimbursements are routinely analyzed and appropriate remedial action is taken to
        address all payments that are determined to be unallowable or unsupported.




                                            - 33 ­
       Thank you for your continued cooperation. If you have any questions regarding thi s
response, please contact Maureen A. Henneberg, Director of the Office of Audit, Assessment,
and Management, on (202) 616-3282.

cc:    Beth McGarry
       Deputy Assistant Attorney General
        for Operations and Management

       James Burch, II
       Acting Director
       Bureau of Justice Assistance

      Carol Poole
      Acting Deputy Director for Programs
      Bureau of Justice Assistance

      Marcia K. Paull
      Chief Financial Officer

      Maureen A. Henneberg
      Director
      Office of Audit, Assessment, and Management

      Jeffery A. Haley
      Deputy Director, Audit and Review Division
      Office of Audit, Assessment, and Management

      Richard A. Theis
      Assistant Director, Audit Liaison Group
      Justice Management Division




                                                2




                                            - 34 ­
                                                               APPENDIX III

              OFFICE OF THE INSPECTOR GENERAL

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


      The OIG provided a draft of this audit report to OJP, and OJP’s
response is included as Appendix II of this final report. The following
provides the OIG’s analysis of the response and summary of actions
necessary to close the report.

1.	   Resolved. The OJP concurred with our recommendation. This
      recommendation can be closed when we receive documentation
      supporting that OJP has implemented internal guidelines to ensure
      that SWBPI reimbursements are routinely analyzed to identify
      anomalies that may indicate unallowable or unsupported payments. In
      addition, the procedures should ensure that appropriate remedial
      action is taken to address all payments that are determined to be
      unallowable or unsupported.




                                    - 35 ­
